                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                            CLOSEOUT MEMORANDUM

Case Number: A11090061                                                                       Page 1 of 1



                  OIG conducted an inquiry into an allegation that two declined NSF proposals (Proposal
         1 and Proposal 22 ) submitted to the same solicitation by different Pis contained nearly identical
           1

         text. It was also alleged that Proposals 1 and 2 contained text plagiarized from an awarded NSF
         proposal 3 submitted by a different institution. Our inquiry found that a University official4 was
         responsible for authoring the proposal.

                We conducted the investigation without referring it to the University. We concluded, by a
         preponderance of the evidence, that the University official recklessly committed plagiarism,
         deemed a significant departure from accepted practices of the relevant research community, and
         recommended actions to be taken to protect the federal interest. The Deputy Director concurred
         with our recommendations.

                Additionally, we sent the Pis and Co-Pis ofProposals 1 and 2 a Questionable Practice Letter
         reminding them of their responsibilities regarding NSF proposals bearing their names.

                 This memo, the attached Report oflnvestigation, and the Deputy Director's letter constitute
         the case closeout. Accordingly, this case is closed.




NSF OIG Form 2 (11/02)
SENSITI"lE                                                                              SENSITIVE




       National Science Foundation
        Office of Inspector General




                  Report of Investigation
                 Case Number A11090061
                           February 5, 2013

                        This Report of Investigation is provided to you
                                 FOR OFFICIAL USE ONLY.
 It contains protected personal information, the unauthorized disclosure of which may result in
 personal criminal liability under the Privacy Act, 5 U.S.C. § 552a. This report may be further
 disclosed within NSF only to individuals who must have knowledge of its contents to
 facilitate NSF's assessment and resolution of this matter. This report may be disclosed
 outside NSF only under the Freedom of Information and Privacy Acts, 5 U.S.C. §§ 552 &
 552a Please take appropriate precautions handling this report of investigation.

                                                                             NSF OIG Form 22b (1/13)
 SENSITIVE                                                                            SENSITIVE



                                     Executive Summary

Allegation:     Plagiarism.

OIG Inquiry:    OIG identified two proposals submitted by different individuals that contained
                nearly identical text. The copied text included material from a previously
                awarded NSF proposal. We contacted the Pis and Co-Pis and, based on their
                responses, we determined a University official (Subject) was responsible for the
                copied text.



OIG Investigation:      Based on special circumstances, we conducted the investigation in lieu of
                        referring the matter. We contacted the Subject and asked her to respond
                        to the allegation and additional questions, and to provide her resume. In
                        her response, the Subject took responsibility for the copied text. Were-
                        reviewed the two proposals and found additional material copied from
                        Internet sources.

OIG
Assessment:
                •    The Act: Subject plagiarized approximately 105 lines, one diagram, and nine
                     embedded references in Proposal 1 and 131 lines and seven embedded
                     references in Proposal 2 from a previous! y awarded NSF Proposal and from
                     Internet sources. Subject also submitted duplicate proposals to the same
                     solicitation on which different Pis and. Co-Pis were named.
                •    Intent: The Subject acted recklessly.
                •    Standard of Proof: A preponderance of evidence supports the conclusion
                     that the Subject committed plagiarism.
                •    Significant Departure: The Subject's plagiarism represents a significant
                     departure from accepted practices.
                •    Pattern: No pattern found.
OIG
Recommends:
                •    Make a finding of research misconduct against the Subject.
                •    Send the Subject a letter of reprimand.




                                               1
    SENSITIVE                                                                                             SENSITIVE



                                                   OIG's Inquiry

        OIG conducted an inquiry into an allegation that two declined NSF proposals (Proposal1 1
and Proposal2 2 ) submitted to the same solicitation by different Pis contained nearly identical text. 3
It was also alleged that Proposals 1 and 2 contained text plagiarized from an awarded NSF proposal
(2009 Proposal) 4 submitted by a different institution. 5

  - ~ -~Our-review aeterminealliat almost airofProposals-1 ancr2' s content was iaenticaTan(f that
Proposals 1 and 2 contained 46lines and 42lines of copied text, respectively, from the 2009
Proposal. We noted- that P-roposals 1 and 2 ·proposed work at two different campuses-of the same
University6 and were simultaneously submitted via a central University Office. We further noted
that differences between the proposals primarily related to campus name and capability. Lastly, we
learned that a University official (Subject) 7 requested and received the 2009 Proposal from NSF
through the Freedom of Information Act. 8

        We contacted both Pis and both Co-Pis about the allegation. We received individual
responses from three of the four. 9 Each respondent stated that a University Office 10 was responsible
for authoring the proposal. One PI added that Proposal 1 was previously submitted and declined,
revised based on reviewer comments, and resubmitted. He also said "It was a decision of the
[University Office] to send the same proposal changing the information for the locations after
consultation to NSF program office." 11

        Based on the responses, we focused our investigation on the Subject. We chose not to refer
the matter to the University because our review of the University's website indicated it did not have
a standalone research misconduct policy and that it was a relatively small and newer institution with
limited experience in managing research programs.




1
  DUE-1154239, entitled "CU-Pon~e Engineering Scholars Program." PI: Ramon Vasquez; Co-PI: Hern,1es Calderon.
Institution: Caribbean University-Ponce. Submitted August 11, 2011, 12:08p.
2
  DUE-1154241, entitled "CU-BC STEM Scholarship Program." PI: Orlando Cundumi-Sanchez; Co-PI: Jorge
Espinosa. Institution: Caribbean University- Bayamon. Submitted August 11, 2011, 12:10p.
3
  Tab 1 contains Proposals 1 and 2 with their identical text highlighted in blue.
4
  DUE-0966153, entitled "Engineering Engineering Education Through Scholarships and Career Development." PI:
Tariq A Khraishi; Co-Pis Ganesh Balalcrishnan, Heather Canavan, Andrea Mammoli, and Steven Peralta. Institution:
University of New Mexico. Submitted Sept 14, 2009.
5
  Tab 2 contains Proposal I and the 2009 Proposal with the identical and/or substantially similar text highlighted in
yellow. Tab 3 contains Proposal2 and the 2009 Proposal with the identical and/or substantially similar text highlighted
in yellow.
6
  Caribbean University. Proposal 1: Ponce campus; Proposal2: Bayamon campus.
7
   Cristina Hernandez, then Director, Office of External Resources and Development.
8
  Leslie Jensen, NSF Legal Analyst- FOIA and Privacy Act, OGC.
9
  We received a letter informing us that Cundumi-Sanchez resigned from the University prior to our contact; he did not
respond to attempts to contact him at a non-University email address.
10
   Office of External Resources and Development.
11
   Tab 4, Vasquez response, pg 1.


                                                           2
 SENSITIVE                                                                                SENSITIVE




                                                OIG Investigation

        We contacted the Subject and informed her of our investigation. 12 We requested that she
detail her involvement in the proposals' preparation, address the allegation of plagiarism from the
2009 Proposal, and explain the submission of two identical proposals under the same solicitation.

       In her response, 13 the Subject confirmed she drafted the proposals and acknowledged she
copied material from the 2009 Proposal. She wrot-e:

                 Yes, I must admit my fault. The intentions were not to copy
                 without citing or providing the due credit. In the rush of things, I
                 neglected to mention that some of the processes in the renewal of
                 the scholarships were modeled after the [2009 Proposal's
                 institution] .14

She said she originally planned to submit one proposal encompassing both campuses, but submitted
the two nearly identical proposals after learning that each campus had to submit its own proposal.
She said she discussed the matter with the Program Officer (P0) 15 by telephone and that "From this
consultation it was understood that two applications of the same project could be submitted as long
as each application targeted a different population or a different discipline." 16 She concluded:

                  ... I would like to offer my sincere apologies. This is a lesson
                  learned. I promise to be more cautious in the future. The intentions
                  were to bring the program to our communities and be able to
                  provide the scholarships to our needy students. 17

        We contacted the PO who recalled speaking with the Subject, but did not have written
records of the exchange. He said he would not have told her she could submit two identical or
nearly identical proposals to the same solicitation. He also said he would have told her that the
University could submit one proposal that proposes projects at two campuses. We therefore
determined the Subject did not receive inaccurate guidance from the PO.

       Were-reviewed Proposal! and Proposal2. We found that Proposal1 18 contained 59 lines,
one diagram, and nine embedded references copied from eight sources. 19 We found that Proposal
 20
2 contained most of that same material and an additional 30 lines copied from four additional
sources.

12
   Tab 5.
13
   Tab 6.
14
   University of New Mexico. Tab 6, pg 1.
15
   Dr. Duncan McBride, Division of Graduate Education.
16
   Tab 6, pg 2.
17
   Tab 6, pg 2.
18
   Tab 7 contains Proposal 1 with the additional copied material annotated.
19
   Tab 8 contains the sources.
20
   Tab 9 contains Proposal2 with the additional copied material annotated.


                                                            3
     SENSITIVE                                                                                               SENSITIVE



                                                                                                                            21
       We confirmed that Proposals 1 and 2 were resubmissions of previously declined proposals,
and identified only minimal changes between the respective resubmissions. The primary change
was the inclusion of the 2009 Proposal text in Proposals 1 and 2, which seemed responsive to the
comment in a panel summary that: "The proposers could solicit help from others who have
successfully written grants in the writing and organization of their proposals before submission."

      -ACiditionallY,-we-ievfewe<lfor piagiansmTIITe-e addifionaJpropo_s_aistlie university- - - -
submitted, 22 of which one was declined, 23 one was awarded, 24 and orie was withdrawn? 5 We
determined the three proposals did not containsubstantiv€ plagiarism. -

        We re-contacted the Subject and asked her to respond to questions regarding the additional
alleged plagiarism in Proposals 1 and 2, and her knowledge of plagiarism and responsible condu-ct
of research training. 26 We also requested via email that she provide her resume.

        In her response, 27 the Subject reiterated that she herself drafted the proposals. She said that
although she does not recall the exact details regarding proposal preparation, she remembers
"searching the Internet for information that could best assist in developing the application
narrative." 28 She said she thought she had properly attributed her sources, and added that the
proposals were submitted following PI review, budget office review, and the University President's
approval.

       The Subject explained that the University Office, of which she was the Director, was a new
unit opened in July 2010, as a one-person office. Based on her job description, 2 ~ her duties included
almost all aspects of research administration and compliance. She said that, though she took
courses on grant writing, she never took a research ethics course and was never formally instructed
about plagiarism. She said she had only a basic understanding of plagiarism and needed to learn
more. She attributed her mistake partially to "the lack of knowledge and the lack of a good tracking
system to help me and the Pis identify the used sources, use of quotation marks, citations, and
marking references. " 30
                                                                                                                      31
       The Subject further explained that she was and remains "under severe amount of stress. "
She provided evidence that "prior to, during, and after the development of the proposals, and during
the time that your office contacted me, I was under a lot of pressure dealing with several 'delicate
personal issues. "' 32 These issues included her daughter being hospitalized and requiring ongoing

21
   Tab 10, DUE-1060178 and Tab 11, DUE-1060141.
22
   The University has submitted a total of eight proposals, other than Proposals 1, 2, 1a, and 2a. The content of five of
the eight proposals was not available in eJ acket and thus were not reviewed.
23
   DUE-1044204.
24
   IIP-1011772, entitled "International Conference on Alternative Energy in Puerto Rico."
25
   IIP-1240487.
26
   Tab 12.
27
   Tab 13.
28
   Tab 13, Answers, pg 1.
29
   Tab 13, Attachment 6.
30
   Tab 13, Answers, pg 3.
31
   Tab 13, Answers, pg 3.
32
   Tab 13, Answers, pg 1.


                                                             4
     SENSITIVE                                                                                       SENSITIVE



treatment, as well as her sister's terminal illness. The Subject also stated and provided evidence that
she resigned from the University in mid-2011 to care for her daughter.

          She concluded:

                 Please note that I only wanted to complete the applications on time
                 and to the best of my ability. I just wanted to assist [the University] in
                 their quest for fmding financial support through scholarships for their
                 students to complete their education, particularly in the STEM fields.
                 I am sorry for the errors. 33

        Based on the Subject's resume, 34 we noted the Subject was educated within the United
         35
States, but her education was not directly related to grant writing or research administration. We
also noted she did not hold a position that involved grant writing or research administration until 10
years after receiving her M.A., and that the three institutions at which she was responsible for grants
were all small institutions. 36

        To determine whether the Subject's actions constituted a significant departure from accepted
practices of the relevant research community, we defined the relevant research community as the
community of grant writers and researcher administrators of federal grants. Accordingly, we
referred to the federal definition of plagiarism, which defines plagiarism as "the appropriation of
another person's ideas, processes, results or words without giving appropriate credit."37 We
determined the. Subject's actions did constitute a significant departure from accepted practices of the
grant writing and research administration communities.


                                               OIG's Assessment

        A finding of research misconduct by NSF requires ( 1) there be a significant departure from
accepted practices of the relevant research community, (2) the research misconduct be committed
intentionally, or knowingly, or recklessly, and (3) the allegation be proved by a preponderance of
the evidence. 38




33
   Tab 13, Answers, pg 3.
34
   Tab 14.
35
   Northeastern Illinois University: B.A., Business Administration; M.A., Human Resources Development.
36
   Director of Grant Resources, Texas A&M International University in Laredo, TX, August 2002 to October 2009;
Assistant Dean for Research, Universidad Central del Caribe, Bayamon, Puerto Rico, October 2009-May 2010;
Director, Office of External Resources and Development, Caribbean University.
37
   45 C.F.R. §689.1(3).
38
    45 C.F.R. §689.2(c).


                                                         5
     SENSITIVE                                                                           SENSITIVE



                                              The Acts

        Our review found the Subject plagiarized from the 2009 Proposal and from Internet sources
approximately 105 lines, one diagram, and nine embedded references, and approximately 131lines
and seven embedded references, in declined Proposals 1 and 2, respectively. Our review also found
that the Subject submitted duplicate proposals to the same solicitation on which different Pis and
Co-Pis wer~_ namej~Jhe~~~j~<! ~~~?_~led~~~ ~-~c~ ?t!~~s~-a~ti~ns.

        We determined the Subject's acts constituted a significant departure from accepted practices
of the relevant research community.



         We conclude that the Subject acted recklessly. Despite her prominent role in the University
Office, the Subject lacked knowledge in the area of grant writing and research administration, was
not trained in ~he responsible conduct of research or even as a researcher, had only minimal
institutional guidance and oversight, and was experiencing personal challenges. Though we
acknowledge that she knew she was phys~cally cutting and pasting material into Proposals 1 and 2
during their preparation, we also acknowledge that the multitude of her job and personal
responsibilities created a situation in which her actions are best characterized as reckless.

                                         Standard o(Proo(

        OIG concludes that the Subject's actions and intent were proven based on a preponderance
of the evidence.

       OIG concludes that the Subject, by a preponderance of the evidence, recklessly plagiarized,
thereby committing an act of research misconduct. 39


                                OIG's Recommended Disposition

       When deciding what appropriate action to take upon a finding of misconduct, NSF must
consider:
             ( 1) How serious the misconduct was; (2) The degree to which the
             misconduct was knowing, intentional, or reckless; (3) Whether it was
             an isolated event or part of a pattern; (4) Whether it had a significant
             impact on the research record, research subjects, other researchers,
             institutions or the public welfare; and (5) Other relevant
             circumstances. 40




39
     45 C.F .R. part 689.
40
     45 C.F.R. § 689.3(b).


                                                  6
     SENSITIVE                                                                               SENSITIVE


                                                        Seriousness

       The Subject's actions are a violation of the federal regulations related to proposal
submissions, regulations with which she herself was supposed to be familiar and ensure the
compliance of others. Copied text serves to mis~epresent one's body of knowledge, presenting
reviewers with an inaccurate representation of a proposals' respective merit. Nonetheless, the
seriousness is mitigated by the aforementioned circumstances.


                                                          Pattern

           No pattern of plagiarism was identified.


                                                    Recommendation

Based on the evidence, OIG recommends NSF:

                •   send a letter of reprimand to the Subject informing her that NSF has made a finding
                    of research misconduct. 41




41
     A letter of reprimand is a Group I action (45 C.F.R. §689.3(a)(l)(i)).


                                                               7
                                 NATIONAL SCIENCE FOUNDATION
                                      4201 WILSON BOULEVARD
                                     ARLINGTON, VIRGINIA 22230




    OFFICE OF THE
                                                                          JUN 06 2013
   DEPUTY DIRECTOR




CERTIFIED MAIL --RETURN RECEIPT REQUESTED

Ms. Cristina Hernandez
P.O. Box 617
Aibonito, Puerto Rico 00609


       Re:     Notice of Research Misconduct Determination


Dear Ms. Hernandez:

       In 2010, you submitted two proposals to the National Science Foundation ("NSF"): "CU-
Ponce Engineering Scholars Program," and "CU-BC STEM Scholarship Program." As
documented in the attached Investigative Report prepared by NSF's Office of Inspector General
("OIG"), these proposals contained plagiarized material.

Research Misconduct and Proposed Sanctions
        Under NSF's regulations, "research misconduct" is defined as "fabrication, falsification,
or plagiarism in proposing or performing research funded by NSF ... " 45 CFR § 689.1 (a). NSF
defines "plagiarism" as "the appropriation of another person's ideas, processes, results or words
without giving appropriate credit." 45 CFR § 689.1(a)(3). A finding of research misconduct
requires that:

       ( 1) There be a significant departure from accepted practices of the relevant research
            community; and
       (2) The research misconduct be committed intentionally, or knowingly, or recklessly; and
       (3) The allegation be proven by a preponderance of evidence.

45 CFR § 689 .2(c).

        Your proposals contained verbatim and paraphrased text, as well as embedded references,
copied from several source documents. By submitting proposals to NSF that copied the ideas or
words of another without adequate attribution, as described in the OIG Investigative Report, you
misrepresented someone else's work as your own. Your conduct unquestionably constitutes
plagiarism. I therefore conclude that your actions meet the definition of "research misconduct"
set folih in NSF's regulations.
                                                                                              Page2
        Pursuant to NSF regulations, the Foundation must also determine whether to make a
finding of misconduct based on a preponderance of the evidence. 45 CFR § 689.2(c). After
reviewing the Investigative Report, NSF has determined that, based on a preponderance of the
evidence, your plagiarism was committed recklessly and constituted a significant departure from
 accepted practices of the relevant research community. I am, therefore, issuing a finding of
research misconduct against you.

        NSF's regulations establish three categories of actions (Group I, II, and III) that can be
taken in response to a finding of misconduct. 45 CPR§ 689.3(a). Group I actions include
issuing a letter of reprimand; conditioning awards on prior approval of particular activities from
NSF; requiring that an institution or individual obtain special prior approval of particular
activities from NSF; and requiring that an institutional representative certify as to the accuracy of
reports or certifications of compliance with particular requirements. 45 CPR§ 689.3(a)(l).
Group II actions include award suspension or restrictions on designated activities or
expenditures; requiring special reviews of requests for funding; and requiring correction to the
research record. 45 CPR§ 689.3(a)(2). Group III actions include suspension or termination of
awards; prohibitions on participation as NSF reviewers, advisors or consultants; and debarment
or suspension from participation in NSF programs. 45 CPR§ 689.3(a)(3).

        In determining the severity of the sanction to impose for research misconduct, I have
considered the seriousness of the misconduct, and our determination that it was committed
recklessly. I have also considered the fact that your misconduct was not part of a pattern, and had
no impact on the research record. I have also taken into account the personal circumstances that
you were facing at the time of the misconduct. 45 CPR§ 689.3(b).

       In light of the aforementioned reasons, I am declining to take any additional
administrative actions against you for your misconduct.




Procedures Governing Appeals

       Under NSF's regulations, you have 30 days after receipt of this letter to submit an appeal
ofthis decision, in writing, to the Director of the Foundation. 45 CPR§ 689.10(a). Any appeal
should be addressed to the Director at the National Science Foundation, 4201 Wilson Boulevard,
Arlington, Virginia 22230. If we do not receive your appeal within the 30-day period, this
decision will become final.
                                                                                           Page 3
       For your information, we are attaching a copy of the applicable regulations. If you have
any questions about the foregoing, please call Eric S. Gold, Assistant General Counsel, at (703)
292-8060.



                                                     Sincerely,

                                                     -~-          .;1
                                                  e-~.J?i:>~-puza--U?t--&----

                                                     Fae Korsmo
                                                     Senior Advisor




Enclosures
- Investigative Report
- 45 C.F .R. Part 689
